         uV     Mun
                  I     .o;u   rAA 00    2Z41 3897        OIG                            -   HQ                   .001

DOE F 1325.8
(08-93)
United States Government                                                                Department of Energy


memorandum
      ' DATE:
                      January 28, 2008
                                                                        Audit Report Number:      OAS-L-08-05
   REPLY TO
  ATTN OF:            IG-34 (A07ID014)

  SUBJECT:            Audit of the Contact-Handled Transuranic Waste Characterization
                                                                                      Capabilities at the
                      Idaho National Laboratory
         TO:          Manager, Carlsbad Field Office
                      Manager, Idaho Operation Office


                  INTRODUCTION AND OBJECTIVE

                  Currently, the Department of Energy (Department) is using two different
                                                                                              production lines
                  to characterize and package the Idaho National Laboratory
                  transuranic waste for final disposal in the Waste            Site's (Idaho) contact-handled
                                                                    Isolation Pilot Plant (WIPP) in New
                  Mexico. The most prominent is the Advanced Mixed
                                                                           Waste Treatment Project (AMWTP),
                  the largest transuranic waste processing facility
                                                                    in the Department with a mission to
                  prepare and ship 65,000 cubic meters of stored
                                                                    waste to WIPP by 2018. The other, the
                  Central Characterization Project (CCP), is a mobile
                  Washington TRU Solutions of Carlsbad, New Mexico.      characterization capability managed by
                                                                             The CCP was deployed to Idaho in
                  2005, at a cost of more than $5 million, in order to characterize
                  8;000 cubic meters of buried waste from the                       and package the estimated
                                                                Accelerated Retrieval Project. The CCP's
                  scope was expanded in 2005 to augment the AMWTP.

                 Idaho is the only Department site to have a fixed contact-handled
                 characterization facility and a mobile characterization             transuranic waste
                                                                         capability to prepare
                 contact-handled waste for disposal. The objective of this review was
                                                                                          to determine whether
                 the contact-handledutransuranic waste characterization
                 utilized.                                               capabilities at Idaho were fully

                 CONCLUSIONS AND OBSERVATIONS

                 Both of the contact-handled transuranic waste characterization
                 under utilized. According to a September                          capabilities at Idaho are
                                                             2007 report, "Assessment of Central
                 Characterization Project Costs," the Department
                                                                   found that the CCP mobile
                 characterization line was under utilized by 25 percent
                 about 40 percent in 2007. Under utilization was          in 2005; 30 percent in 2006; and
                                                                   attributed, in part, to a higher than
                 expected percentage of retrieved drums that
                                                              contained prohibited items. Management also
                recognized that the Accelerated Retrieval Project
                                                                    had not been able to exhume buried
                waste at the rate anticipated. Therefore, to
                                                             better utilize the CCP assets at Idaho and
                assist the Department in its regulatory obligations,                                      to
                                                                     the CCP received a majority of its waste
                from the AMWTP' s stored waste inventory during
                                                                     2005 through September 2007,
                effectively augmenting the AMWTP.
                                                                                .HQ                    2002



    The AMWTP has also been under utilized for processing
                                                                contact-handled transuranic
   waste in Idaho. Based on a Department evaluation of actual contact-handled
   waste processed in the past and projections for the remaining                    transuranic
                                                                    stored waste, the AMWTP
   has a weighted average utilization rate of 76 percent.
                                                           When the AMWTP was constructed,
   it was designed with the capability to characterize
                                                       and treat all general types of contact-
  handled transuranic waste stored at Idaho including
                                                          debris waste, inorganic homogeneous
  solids, and organic homogeneous solids. Although
                                                        the facility is currently only scheduled
  to process and treat approximately 65,000 cubic
                                                     meters of
  AMWTP was designed with the capacity to characterize stored waste at Idaho, the
                                                              and treat as much as 185,000
  cubic meters of waste over its lifespan. This unused lifecycle
                                                                    capacity has not yet been
  assigned to any waste streams. Accordingly, the AMWTP
                                                                 may have the technical
  capability as well as the capacity to assume
                                                responsibility for characterizing the waste
  stream produced from the Accelerated
  CCP.                                     Retrieval Project - waste now processed
                                                                                      by the

  While the initial justification for establishing the
  characterization facilities in Idaho had              CCP contact-handled
                                            merit, subsequent events indicatewaste
                                                                                 that it might be
  possible to consolidate these assets with those of the AMWTP. When initially           considering
  options for processing waste from the Accelerated Retrieval Project, two primary barriers
  appeared to exist for having the AMWTP add such waste to its scope of work. First, the
  AMWTP was owned and operated by a private
                                                     company,
  arrangement that was difficult to modify. Additionally, BNFL, under a contractual
 risk of missing interim egulatory milestones                 at the time, the AMWTP was at
                                                   for shipping contact-handled transuranic
 waste out of the state of Idaho. However, the
                                                    Department now owns the AMWTP,
 providing it with some flexibility to modify
                                                 the scope of work over this project.
 Additionally, the AMWTP has significantly increased
 no longer a substantial risk of missing interim            production since 2005 and there is
                                                    shipped waste milestones. Based on these
 changes, it may now be feasible to add the contact-handled
                                                                  waste work performed by the
 CCP to the AMWTP's work scope without increasing the
 will be missed.                                                risk that regulatory milestones

 Because of differences in accumulating costs
                                                 for the AMWTP and CCP, we were unable to
 calculate the savings available from the transfer
 related mission to the AMWTP. The Departmentof the CCP's contact-handled waste
 utilization and thereby save some portion            may, however,
                                            of the $12- million spentbe able to improve asset
                                                                      annually to operate the
 CCP's contact-handled characterization line at Idaho. Accordingly, we suggest that
management explore the costs and benefits of adding the scope of work currently
conducted by the CCP's contact-handled transuranic
AMWTP contract currently scheduled to begin             waste characterization lines to the new
                                                   in May 2009. We recognize that
consolidating the two operations will involvetransportation,
changes that impact operations beyond
                                        the scope of this audit.scheduling,
                                                                  These
                                                                             and personnel
be considered as part of management's review of the consolidation. factors should also

SCOPE AND METHODOLOGY

The audit was performed between February 2007 and
Office and the Idaho National Laboratory.          January 2008 at the Carlsbad Field
                                          To accomplish the audit objective, we obtained



                                     2
          --..UIU --.   --   .,.   ,   .                                ,»,       HQ                Z]003




  and reviewed guidance relevant to transuranic
  documents, purchase orders, and statements waste characterization; reviewed contracting
                                                 of work for the contractors' participating in
  transuranic waste characterization; compared costs
  work performed to meet the characterization goals; for   the AMWTP and CCP; reviewed
                                                       reviewed independent studies of
  characterization activities; and, held discussions
  overseeing the characterization oftransuranic with key officials responsible for
                                                  waste.
  The audit was limited to the contact-handled transuranic
                                                            waste characterization and
  processing capabilities at Idaho. Our audit did not evaluate
  remote-handled transuranic waste operation or                 the CCP's separate
                                                  the analytical lab services provided to the
  CCP by Battelle Energy Alliance and CH2M Washington
                                                              Group Idaho.
  We conducted this performance audit in accordance
  auditing standards. Those standards require that       with generally accepted government
                                                      we plan and perform the audit   to obtain
 sufficient, appropriate evidence to provide a
                                                 reasonable basis for our findings and
 conclusions based on our audit objectives.
                                               We believe that the evidence obtained provides
 a reasonable basis for our findings and conclusions
 our review was limited, it would not necessarily       based on our audit objectives. Because
                                                     have disclosed all internal control
 deficiencies that may have existed at the time
                                                  of our audit. Also, we considered the
 establishment of performance measures in accordance
 and Results Act of 1993 as they related to                with the Government Performance
                                             the audit objective.  Additionally, we did not rely"
 on computer-processed data during
                                      the audit; therefore, we did not conduct
 assessments on the data.                                                        reliability

  We discussed the audit results with Department
                                                  officials at the Carlsbad Field Office and
 the Idaho Operations Office during the week ofJanuary
                                                            14, 2008. Because no formal
 recommendations are being made in this report,
 appreciate the cooperation of your staff         a formal   response is not required. We
                                          during our review.



                                                      cG. "epe4r, D           r

                                                  ience and Environmental
                                                 Audits Division
                                                Office of Inspector General
Scc: Chief of Staff
     Assistant Secretary, Office of Environmental
                                                   Management
     Team Leader, Audit Liaison Team, CF-1.2
     Audit Liaison, Environmental Management,
                                                  EM-33
     Audit Liaison, Carlsbad Field Office
     Audit Liaison, Idaho Operations Office




                                           .3
